Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




      Y2K READINESS OF
     MEDICARE PROVIDERS




                   JUNE GIBBS BROWN
                    Inspector General

                       MARCH 1999
                      OEI-03-98-00250
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Lead Analyst
                           Bambi Straw, Program Specialist

Tara Schmerling
                                     Stuart Wright, Program Specialist

David Graf
                                          Scott Horning, Technical Support Staff

Nancy Gross
                                         Linda Moscoe, Technical Support Staff

Cynthia Hansford
                                    Brian Ritchie, Technical Support Staff

Robert Katz
                                         Barbara Tedesco, Technical Support Staff

Erika Q. Lang

Lauren McNulty

Nancy Molyneaux





 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                               http://www.dhhs.gov/progorg/oei
June Gibbs Brown (Original Signed)

Inspector General


OIG Final Report: "Y2K Readiness of Medicare Providers," OEI-03-98-00250


Nancy-Ann Min DeParle

Administrator

Health Care Financing Administration



In December 1998, we sent 5000 anonymous surveys to hospitals, nursing facilities,

home health agencies, durable medical equipment suppliers, and physicians. The sample

was stratified to ensure equal representation of urban and rural fee-for-service providers. 

 We accepted survey responses through early February 1999. Completed surveys were

received from 49 percent of hospitals, 41 percent of nursing facilities, 27 percent of

home health agencies, 26 percent of durable medical equipment suppliers, and 22 percent

of physicians. 


Y2K Readiness

About half of the health care providers responding to our survey reported that their
billing and medical records systems were Y2K ready. However, providers seemed less
confident in the Y2K readiness of their biomedical equipment. Less than half of the
respondents had developed a contingency plan in preparation for possible Y2K-related
failures. Less than half of respondents had received certification or guarantees that
vendor systems were Y2K compliant. In addition, few respondents had actually tested
data exchange with external vendors.

Assistance By Medicare Contractors

Less than 60 percent of respondents reported that their Medicare contractor had sent
them information or offered assistance on Y2K. Even fewer respondents were aware
that Medicare contractors offered free Y2K-ready software.

Focus of Future Readiness Efforts

This report is intended to give the Health Care Financing Administration and health care
provider associations current data that could be used to target potential impediments to
provider Y2K readiness. While Y2K readiness is the responsibility of each individual
provider, we suggest that as HCFA and provider associations continue their outreach
and education efforts they focus on the following: increasing awareness and
dissemination of available Y2K-compliant software, emphasizing the need to test new or
renovated systems and equipment, providing information on contingency planning,
emphasizing the need for providers to discuss Y2K compliance with their external
vendors, and developing strategies to improve communication between providers and
their Medicare contractors.

We recognize that HCFA has taken significant steps to address Medicare provider
readiness. This report was designed to provide HCFA and health care provider
associations with immediate access to our survey results. In addition, we plan to prepare
a more in-depth analysis of the survey responses to determine if certain factors impact
provider readiness. We hope this information will assist your office in ongoing Y2K
outreach and education efforts.

We received comments from your agency and the Assistant Secretary for Management
and Budget. We modified our report in response to these comments. In particular, we
emphasized that readers should be cautious in using our data to make generalizations
about the entire provider community.

If you have any questions or comments, please call me or George Grob, Deputy
Inspector General for Evaluation and Inspections, or have your staff contact
Mary Beth Clarke at (202) 619-2481.




                                            2

                            INTRODUCTION

PURPOSE

To provide the results of a survey of health care providers’ readiness for the Year 2000 (Y2K).
Survey respondents included the following types of Medicare providers: hospitals, nursing
facilities, home health agencies, durable medical equipment suppliers, and physicians.

BACKGROUND

Early programmers had to deal with two major constraints in the first few years of computer

technology: limited computer memory and high data storage costs. Today’s Year 2000 problems

stem directly from early programmers’ use of an “implied century.” This allowed them to

conserve space by coding the year as a two-digit code rather than a four-digit code in the date

field. For instance, the year 1970 was entered as 70, and the year 1980 as 80.


Computers that do not rely on implied centuries, and are therefore capable of processing four-

digit years after 1999, are said to be “Y2K ready” or “Y2K compliant.” Computers that are not

Y2K compliant will malfunction when the implied century (the first two digits of a four-digit year)

is not 19. The year 2000 in a non-Y2K compliant computer is read as ‘00’, and thus interpreted

as 1900. When this happens, computers will have problems processing information.

Therefore, medical record and billing systems must be updated and made Y2K compliant. 

Additionally, medical devices with embedded microchips could be adversely affected.


The Impact of Y2K on Medicare

According to the Health Care Financing Administration (HCFA), the Medicare program has 100
mission-critical computer systems containing almost 50 million lines of programming code. The
HCFA has made it a top priority to ensure that these systems are ready for the year 2000.

In addition to internal systems, HCFA must also be concerned with the compliance of individual
systems used by Medicare claims-processing contractors and health care providers. This is
especially important since the majority of Medicare claims are now sent electronically to the
contractors (Medicare carriers and fiscal intermediaries) for processing and payment.

Initially, HCFA established a requirement that all providers submit electronic claims using an
eight-digit date format by January 1, 1999. However, recognizing that many providers needed
more time to prepare their systems, HCFA recently established April 5, 1999 as the new deadline.
Beginning April 5, all claims submitted without an eight-digit date will be rejected. To assist
providers, HCFA has required its contractors to offer free Y2K-ready billing software to
Medicare providers.

As part of an outreach effort to Medicare providers, HCFA sent out more than one million letters
regarding the Y2K issue on January 12, 1999. The letter to providers stated that HCFA will be
ready to process and pay all acceptable claims on January 1, 2000, and stressed that providers
must take steps to ensure their own Y2K readiness. A checklist was included with the letter to
assist providers in assessing their Y2K compliance. Not only must providers ensure that their



                                         )))))))))))
                                              3
own systems are Y2K ready, they must also review the systems used by their billing services and
other external vendors.

Recognizing the importance of provider readiness, the Office of Inspector General and HCFA
collaborated in the development of this inspection.

METHODOLOGY

Utilizing Medicare data bases, we sampled five provider groups for our survey: acute-care
hospitals, nursing facilities, home health agencies, durable medical equipment (DME) suppliers,
and physicians. To fulfill HCFA’s request that rural providers be adequately represented, we
stratified our sample based on urban and rural classification. We determined this classification
based on whether a provider’s address was located in a Metropolitan Area designated by the
United States Office of Management and Budget. We selected a random sample of 500 urban and
500 rural providers from each of the five provider groups.

We sent anonymous surveys to the 5000 sampled providers during December of 1998. We
accepted responses through early February of 1999. In order to increase response rates, we
assured providers that we had no way of tracking who responded to our request. To further
increase response rates, we mailed a reminder postcard to all providers two weeks after the initial
survey request was sent. We received responses from 49 percent of hospitals, 41 percent of
nursing facilities, 27 percent of home health agencies, 26 percent of durable medical equipment
suppliers, and 22 percent of physicians

We developed our data collection surveys to address several key issues: Y2K awareness,
computer system readiness, contingency planning, vendor coordination, and Medicare contractor
outreach. We designed the surveys in cooperation with HCFA and several professional and
national trade associations. The following organizations worked with us and allowed us to
highlight their cooperation in the survey instruments sent to providers: American Association of
Homes and Services for the Aging, American Health Care Association, Health Industry
Distributors Association, National Association for Home Care, and National Association for
Medical Equipment Services. The American Hospital Association and American Medical
Association also assisted in designing the surveys.

We analyzed the data based on the urban or rural classification for each provider group. For each
survey question, we calculated percentages based on the number of answers provided for each
response category. We compared the various groups to determine if differences existed among
provider types.

This report provides a summary of the results of the provider surveys. Providers’ responses to
individual survey questions are presented in the appendices. The data analyzed in this report was
furnished by individual Medicare providers and was not verified for accuracy. Furthermore, the
data presented in this report is based solely on those providers who responded to the survey. We
are unable to make any statements about the condition of those who did not respond. With this is
mind, readers should be cautious in using our data to make generalizations about the entire
provider community.




                                         )))))))))))
                                              4
     SUMMARY OF SURVEY RESULTS

PROVIDER READINESS FOR THE YEAR 2000

'	   Billing and Financial Systems: About half of all respondents reported their billing and
     financial systems were Y2K ready. Of the respondents who were not ready, more than 90
     percent of hospitals responded they will be ready by December 31, 1999. Only 70 to 84
     percent of the other provider groups responded that their billing and financial systems will
     be ready by this date.

'	   Submission of Electronic Claims: For most provider types, 50 to 63 percent of
     respondents said they could enter an eight-digit date on electronic claims. However,
     nursing facility respondents were generally less able to enter an eight-digit date. Of those
     not able to enter eight-digit dates, between 27 to 71 percent said they will be ready to by
     July 1999.

'	   Clinical and Medical Record Systems: About half of respondents indicated that their
     clinical and medical records systems were Y2K ready. For most provider groups, at least
     three-quarters of those not ready reported that they will be ready by the year 2000.
     However, rural physicians (47 percent), urban physicians (64 percent), and rural home
     health agencies (63 percent) were less likely than other providers to have these systems
     ready by that date.

'	   Biomedical Equipment: Less than one-third of respondents reported that their biomedical
     equipment was Y2K compliant. Overall, respondents seemed less confident in the Y2K
     compliance of their biomedical equipment than they did the Y2K readiness of their
     computer systems.

'	   Systems Testing: Less than two-thirds of respondents had renovated or replaced their
     computer systems for Y2K compliance. More than half of these respondents had tested
     the systems. Fewer than half of respondents renovated or replaced biomedical equipment.
     Testing of this equipment ranged from 36 to 80 percent.

CONTINGENCY PLANNING

'	   Less than half of respondents had developed a contingency plan in preparation for possible
     Y2K-related failures.

'	   Of the respondents who have not yet developed a contingency plan, almost all hospitals
     plan to develop one, while about half of physicians intend to develop one.

'	   Most respondents indicated they would submit paper claims if they could not submit
     electronically. However, some questioned whether the Medicare program would allow or
     be able to handle these paper claims.




                                       )))))))))))
                                            5
                     FIGURE 1: PROVIDER READINESS
                Percentage Who Report Current Y2K Readiness

                           0%   10%   20%     30%         40%     50%          60%    70%   80%    90%    100%

                                                                              55%
        Rural Hospitals                                           46%
                                                    31%

                                                                        50%
       Urban Hospitals                                            46%
                                            23%

                                                                   48%
Rural Nursing Facilities                                                 52%
                                        21%

                                                                    49%
Urban Nursing Facilities                                                  54%
                                        21%

                                                                    49%                     Billing Systems
     Rural Home Health
                                                                   47%                      Medical Records Systems
         Agencies
                                              26%                                           Biomedical Equipment
                                                                        50%
    Urban Home Health
                                                                        51%
        Agencies
                                        21%

                                                                                59%
   Rural DME Suppliers                                                  51%
                                            23%

                                                                              56%
  Urban DME Suppliers                                             45%
                                                  28%

                                                                          54%
       Rural Physicians                                     41%
                                                   30%

                                                                  45%
      Urban Physicians                                      40%
                                        20%




                                              )))))))))))
                                                   6
                FIGURE 2: FUTURE PROVIDER READINESS
             Percentage Who Predict Y2K Readiness by 12/31/99

                           0%   10%   20%   30%    40%   50%      60%       70%      80%         90%     100%

                                                                                                         95%
        Rural Hospitals                                                                                 93%
                                                                                                  88%

                                                                                                       92%
       Urban Hospitals                                                                             91%
                                                                                                   90%

                                                                                           80%
Rural Nursing Facilities                                                              77%
                                                                        63%

                                                                                             84%
Urban Nursing Facilities                                                              78%
                                                                        62%
                                                                                       Billing Systems
                                                                               70%
     Rural Home Health                                                                 Medical Records Systems
                                                                        63%
         Agencies
                                                                      60%              Biomedical Equipment

                                                                                     75%
    Urban Home Health
                                                                                           80%
        Agencies
                                                                              68%

                                                                                            82%
   Rural DME Suppliers                                                                     80%
                                                                         64%

                                                                                       79%
  Urban DME Suppliers                                                                       83%
                                                                         64%

                                                                                     75%
       Rural Physicians                                   47%
                                                         45%

                                                                                      77%
      Urban Physicians                                                   64%
                                                                52%




                                Note: Percentages are based on providers who responded
                                             they were not currently ready.




                                            )))))))))))
                                                 7
                     FIGURE 3: CONTINGENCY PLANNING
                Percentage Who Report Having Contingency Plans

                                0%   10%   20%   30%         40%         50%     60%   70%   80%   90%   100%



             Rural Hospitals                                       42%




            Urban Hospitals                                                51%




     Rural Nursing Facilities                          32%




    Urban Nursing Facilities                           32%




Rural Home Health Agencies                              34%




Urban Home Health Agencies                                         42%




       Rural DME Suppliers                             32%




       Urban DME Suppliers                        29%




           Rural Physicians                            32%




           Urban Physicians                       29%




                                             )))))))))))
                                                  8
EXTERNAL VENDORSÊ

'	   Fifty-one percent of rural hospital and 68 percent of urban hospital respondents contracted
     with an external vendor for claims submission and payment activities. For the other four
     provider types, only about one-third of respondents reported using an external billing
     service.

'	   At least 80 percent of responding hospitals have discussed Y2K issues with their vendors.
     Approximately 60 percent of nursing facility and home health agency respondents have
     initiated Y2K discussions with external vendors. About 45 percent of responding DME
     suppliers and physicians had talked to vendors about Y2K.

'	   About one-third of nursing facility, DME supplier, and physician respondents had received
     certification from vendors that their systems will be Y2K ready. Approximately half of
     home health agency and hospital respondents had received certifications. Less than half of
     respondents had contracts with vendors that guarantee Y2K readiness.

'	   Less than 20 percent of respondents had tested data exchange between their systems and
     their external vendors’ systems.


MEDICARE CONTRACTOR EFFORTSÊ

 '	 Less than 60 percent of respondents reported that their Medicare contractor had sent them
    Y2K information or offered Y2K assistance. Urban home health agencies reported the
    highest level of outreach (57 percent), and urban physicians reported the lowest level
    (27 percent).

 '	 Less than half of respondents believed that efforts by Medicare contractors had increased
    their Y2K awareness. Rural nursing facility and urban physician respondents were the
    most critical, with less than 30 percent reporting that contractor outreach had been
    informative.

 '	 Urban home health agency respondents were the most aware that Medicare contractors
    offered free Y2K-ready software (41 percent). Rural nursing facility and urban physician
    respondents were the least aware (16 percent).

 '	 Very few respondents (10 to 22 percent) had actually requested Y2K-ready software from
    Medicare contractors. Fifty-five to 86 percent of those who received the software said it
    functioned properly.




                                      )))))))))))
                                           9
                               CONCLUSION

We prepared this report in order to give the Health Care Financing Administration and health care
provider associations current data that could be used to target potential impediments to provider
Y2K readiness. While Y2K readiness is the responsibility of each individual provider, we suggest
that as HCFA and provider associations continue their outreach and education efforts they focus
on the following: increasing awareness and dissemination of available Y2K-compliant software,
emphasizing the need to test new or renovated systems and equipment, providing information on
contingency planning, emphasizing the need for providers to discuss Y2K compliance with their
external vendors, and developing strategies to improve communication between providers and
their Medicare contractors.

AGENCY COMMENTSÊ

We received comments from the Health Care Financing Administration and the Assistant
Secretary for Management and Budget. We modified our report in response to these comments.
In particular, we emphasized that readers should be cautious in using our data to make
generalizations about the entire provider community. The full text of HCFA’s and ASMB’s
comments is presented in Appendices F and G.




                                        )))))))))))
                                             10
                                       APPENDICES



Hospital Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A

Nursing Facility Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B

Home Health Agency Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C

Durable Medical Equipment Supplier Survey Results . . . . . . . . . . . . . . . . . . . . . . D

Physician Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . E

Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . F

Assistant Secretary for Management and Budget Comments . . . . . . . . . . . . . . . . G
  APPENDIX A





HOSPITAL SURVEY RESULTS





       )))))))))))
           A - 1

KEY:

  n   = number of responses
Yes   = percentage of n answering "Yes".
 No   = percentage of n answering "No".
DK    = percentage of n answering "Don't Know".
N/A   = percentage of n answering "Not Applicable" or providing no response.

All percentages may not total 100 percent due to rounding.

Applicable footnotes appear at the bottom of each page.


SURVEY RESPONSE RATES:

                        Total          Number of        Number of              Response
                       Number         Surveys Mailed Surveys Returned            Rate
Rural Hospitals         2,287              500             281                   56%
Urban Hospitals         3,405              500             208                   42%
Total                   5,692             1000             489                   49%




                                                                                          Hospitals, Page A - 2
A. BACKGROUND

                                                                                                                    n    Yes     No    DK          N/A
1.   Do you contract with an external vendor for claims submission and payment activities?                 Rural   281   51%    44%    0%          5%
                                                                                                           Urban   208   68%    26%    3%          3%

2.	 Is an external vendor or contractor assisting in your effort to solve Y2K-related computer problems?   Rural   281   49%    42%    2%          8%
                                                                                                           Urban   208   58%    37%    1%          3%

3.	 Have you contacted an external vendor or contractor to assist you in completing this survey?           Rural   281   6%     89%    0%          5%
                                                                                                           Urban   208   5%     92%    0%          3%




B. Y2K AWARENESS AND PLANNING
                                                                                                                    n     Yes   No     DK          N/A
4.	 Have you thought about how Y2K problems could affect your hospital?                                    Rural   281   100%   0%     0%          0%
                                                                                                           Urban   208   98%    0%     0%          2%

5.   Have you developed a strategy for dealing with potential Y2K problems associated with your:
       a. 	Billing/financial systems?                                                                      Rural   281   96%    3%     0%          1%
                                                                                                           Urban   208   95%    3%     1%          0%

        b. 	Clinical/medical records systems?                                                              Rural   281   93%    4%     1%          2%
                                                                                                           Urban   208   96%    2%     1%          1%

        c. 	Biomedical equipment?                                                                          Rural   281   93%    4%     2%          1%
                                                                                                           Urban   208   97%    2%     0%          1%

6.   Are you facing any of the following obstacles in identifying or fixing potential Y2K problems:
        a. Lack of financial resources?                                                                    Rural   281   38%    56%    6%          0%
                                                                                                           Urban   208   25%    68%    6%          1%

        b. Lack of skilled personnel?                                                                      Rural   281   40%    58%    2%          1%
                                                                                                           Urban   208   31%    64%    5%          0%

        c. Lack of vendor cooperation?                                                                     Rural   281   33%    58%    9%          1%
                                                                                                           Urban   208   44%    48%    8%          0%

        d. Lack of billing service cooperation?                                                            Rural   281   3%     82%    6%           9%
                                                                                                           Urban   208   5%     75%    7%          13%

7.   Have you thought about the impact to your hospital if all systems are not Y2K ready?                  Rural   281   99%    0%     0%          0%
                                                                                                           Urban   208   99%    1%     0%          0%


                                                                                                                                      Hospitals, Page A - 3
B. Y2K AWARENESS AND PLANNING (cont.)
                                                                                                                    n    Yes    No    DK          N/A
8.     Have you developed contingency plans in case your hospital experiences Y2K-related failures?        Rural   281   42%   55%    2%          1%
                                                                                                           Urban   208   51%   47%    0%          2%

9.	 If you have not developed contingency plans, do you plan to do so? 1                                   Rural   155   91%   4%     5%          1%
                                                                                                           Urban    97   99%   0%     0%          1%

10.	 Do you feel that your ability to provide quality care could be compromised by Y2K-related failures?   Rural   281   41%   47%   10%          2%
                                                                                                           Urban   208   47%   42%    9%          2%

       a. If your hospital has a quality assurance committee, is it involved in Y2K planning?              Rural   281   57%   36%    2%          5%
                                                                                                           Urban   208   56%   35%    3%          6%




C. COMPUTER SYSTEMS
                                                                                                                   n     Yes   No     DK          N/A
11. Have you made a complete inventory of your:
          a. Billing/financial systems?                                                                    Rural   281   93%   6%     1%          0%
                                                                                                           Urban   208   97%   2%     1%          0%

          b. Clinical/medical records systems?                                                             Rural   281   90%   7%     1%          1%
                                                                                                           Urban   208   95%   3%     0%          2%

          c. Biomedical equipment?                                                                         Rural   281   89%   10%    1%          0%
                                                                                                           Urban   208   94%   5%     0%          1%

12. Have you assessed the Y2K readiness of your:
          a. Billing/financial systems?                                                                    Rural   281   92%   7%     1%          0%
                                                                                                           Urban   208   92%   6%     1%          1%

          b. Clinical/medical records systems?                                                             Rural   281   88%   9%     2%          2%
                                                                                                           Urban   208   89%   8%     0%          3%

          c. Biomedical equipment?                                                                         Rural   281   82%   14%    4%          0%
                                                                                                           Urban   208   80%   16%    0%          3%




1
    Only analyzed if respondent answered "No" to question 8.
                                                                                                                                     Hospitals, Page A - 4
C. COMPUTER SYSTEMS (cont.)
                                                                                                     n     Yes   No     DK          N/A
13. If necessary, have you renovated or replaced your:
          a. Billing/financial systems?                                                      Rural   281   58%   31%    0%          10%
                                                                                             Urban   208   63%   21%    3%          14%

          b. Clinical/medical records systems?                                               Rural   281   49%   36%    1%          14%
                                                                                             Urban   208   56%   26%    2%          16%

          c. Biomedical equipment?                                                           Rural   281   40%   47%    5%           7%
                                                                                             Urban   208   47%   38%    5%          10%

14. Have you tested your new or renovated:
          a. Billing/financial systems? 2                                                    Rural   164   61%   35%    0%          4%
                                                                                             Urban   130   58%   38%    2%          2%

          b. Clinical/medical records systems? 2                                             Rural   138   58%   36%    1%          5%
                                                                                             Urban   116   61%   33%    3%          3%

          c. Biomedical equipment? 2                                                         Rural   113   58%   36%    1%          5%
                                                                                             Urban    98   59%   32%    5%          4%

15. Have you begun to use your new or renovated:
          a. Billing/financial systems? 2                                                    Rural   164   71%   27%    1%          1%
                                                                                             Urban   130   60%   38%    0%          2%

          b. Clinical/medical records systems? 2                                             Rural   138   62%   36%    1%          2%
                                                                                             Urban   116   64%   34%    0%          2%

          c. Biomedical equipment? 2                                                         Rural   113   68%   23%    2%          7%
                                                                                             Urban    98   62%   32%    2%          4%

16. Are the following currently Y2K ready:
          a. Billing/financial systems?                                                      Rural   281   55%   39%    5%          1%
                                                                                             Urban   208   50%   38%    9%          3%

          b. Clinical/medical records systems?                                               Rural   281   46%   38%   11%          5%
                                                                                             Urban   208   46%   38%    9%          7%

          c. Biomedical equipment?                                                           Rural   281   31%   47%   20%          3%
                                                                                             Urban   208   23%   57%   16%          4%




2
    Only analyzed if respondent answered "Yes" to question 13a, 13b, or 13c, respectively.
                                                                                                                       Hospitals, Page A - 5
C. COMPUTER SYSTEMS (cont.)
                                                                                                                     n     Yes   No     DK          N/A
17. Will the following be Y2K ready by December 31, 1999:
          a. 	Billing/financial systems? 3                                                                   Rural   124   95%   2%     3%          0%
                                                                                                             Urban    97   92%   2%     5%          1%

          b. 	Clinical/medical records systems? 3                                                            Rural   139   93%   4%     2%          1%
                                                                                                             Urban    99   91%   2%     6%          1%

          c. 	Biomedical equipment? 3                                                                        Rural   187   88%   3%     9%          1%
                                                                                                             Urban   151   90%   3%     7%          1%



D. MEDICARE CLAIM FILING
                                                                                                                      n    Yes    No    DK          N/A
18.	 Are you aware that several fields on HCFA claim forms now require or will soon require 8-digit dates?   Rural   281   83%   11%    5%          1%
                                                                                                             Urban   208   85%   7%     6%          2%

19. Can you:
          a. 	Enter 8-digit dates in the required fields of the paper HCFA Form 1450?                        Rural   281   48%   16%   19%          17%
                                                                                                             Urban   208   47%   15%   22%          16%

          b. 	Enter 8-digit dates in the required fields of the paper HCFA Form 1500?                        Rural   281   60%   17%   17%           5%
                                                                                                             Urban   208   53%   16%   20%          11%

20. Can you:
          a. 	Enter 8-digit dates in the required fields of the electronic UB-92 (UB-92/X12 837)?            Rural   281   62%   17%   18%          3%
                                                                                                             Urban   208   61%   13%   21%          5%

          b. 	Enter 8-digit dates in the required fields of the electronic HCFA Form 1500 (NSF/X12 837)?     Rural   281   59%   16%   18%           7%
                                                                                                             Urban   208   54%   13%   19%          13%

21.	 Will you be able to enter 8-digit dates in these fields in the next six months? 4                       Rural   105   48%   2%    50%          0%
                                                                                                             Urban    76   62%   0%    37%          1%



E. MEDICARE CONTRACTOR EFFORTS
                                                                                                                      n    Yes    No    DK          N/A
22.	 Has your Medicare contractor sent you information on Y2K or offered assistance with Y2K issues?         Rural   281   56%   26%   14%          4%
                                                                                                             Urban   208   52%   26%   17%          5%

3
    Only analyzed if respondent answered "No" or "Don't Know" to question 16a, 16,b, or 16c, respectively.
4
    Only analyzed if respondent answered "No" or "Don't Know" to questions 20a or 20b.

                                                                                                                                       Hospitals, Page A - 6
E. MEDICARE CONTRACTOR EFFORTS (cont.)
                                                                                                                          n    Yes    No    DK          N/A
23. Have efforts from your Medicare contractor increased your Y2K awareness?                                     Rural   281   37%   51%    7%          5%
                                                                                                                 Urban   208   35%   46%   12%          7%

24.	 Are you aware that Medicare contractors have free Y2K-ready billing software available for use?             Rural   281   30%   62%    4%          4%
                                                                                                                 Urban   208   29%   55%    9%          6%

25.	 Have you requested Y2K-ready software from your Medicare contractor?                                        Rural   281   21%   68%    6%          5%
                                                                                                                 Urban   208   17%   64%   12%          7%

26.	 Have you received Y2K-ready software from your Medicare contractor? 5                                       Rural   281   15%   68%    9%           8%
                                                                                                                 Urban   208   12%   62%   16%          11%

27.	 Have you installed the Y2K-ready software provided by your Medicare contractor? 6                           Rural   43    88%   7%     2%          2%
                                                                                                                 Urban   25    80%   16%    0%          4%

28.	 Have you submitted any claims using the Y2K-ready software provided by your Medicare contractor? 6          Rural   43    70%   28%    2%          0%
                                                                                                                 Urban   25    72%   20%    8%          0%

29.	 Does your Medicare contractor's Y2K-ready software function properly? 6                                     Rural   43    70%   7%    19%          5%
                                                                                                                 Urban   25    68%   0%    32%          0%




F. VENDORS AND CONTRACTORS
                                                                                                                          n    Yes    No    DK          N/A
30.	 Have you identified all external vendors and contractors with whom you conduct business?                    Rural   281   72%   23%    4%          2%
                                                                                                                 Urban   208   84%   14%    1%          1%

31.	 Have you discussed Y2K issues with your vendors and contractors?                                            Rural   281   80%   17%    1%          2%
                                                                                                                 Urban   208   86%   12%    1%          1%

32.	 Have you received certification from vendors and contractors that their systems will be Y2K ready?          Rural   281   55%   38%    3%          4%
                                                                                                                 Urban   208   60%   33%    3%          4%

33.	 Do your contracts with vendors and contractors guarantee Y2K readiness?                                     Rural   281   33%   46%   16%          4%
                                                                                                                 Urban   208   38%   49%   10%          2%

34.	 Have you tested Y2K data exchange between your systems and your vendors and contractors?                    Rural   281   13%   74%    8%          5%
                                                                                                                 Urban   208   19%   68%    7%          6%


5
    Rural Hosp: 40 of 59 who requested software received it. Urban Hosp: 23 of 36 who requested software received it.
6
    Only analyzed if respondent answered "Yes" to question 26.
                                                                                                                                           Hospitals, Page A - 7
G. OVERALL ASSESSMENT

                                                                                                        Strongly                                 Strongly
                                                                                                         Agree…….….......….….…………..……………......…..Disagree
                                                                                                   n        1     2          3      4    5           6
35. I have an excellent understanding of Y2K issues:                                      Rural   281     23%    43%        25%    6%   2%          1%
                                                                                          Urban   208     43%    41%        13%    1%   0%          0%

36.	 I am very concerned about Y2K issues:                                                Rural   281    46%      34%     14%      4%         2%          0%
                                                                                          Urban   208    53%      35%     8%       2%         1%          0%

37.	 My hospital is currently Y2K ready:                                                  Rural   281     4%      16%     35%     26%        12%         7%
                                                                                          Urban   208     1%      16%     37%     20%        13%         11%

38.	 My hospital will be Y2K ready by December 31, 1999:                                  Rural   281    52%      37%     5%       3%         0%          1%
                                                                                          Urban   208    62%      32%     2%       1%         0%          0%

39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   281    50%      32%     11%      3%         1%          2%
                                                                                          Urban   208    50%      38%     8%       0%         0%          0%

40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   281     5%      10%     29%     18%        12%         10%
                                                                                          Urban   208     5%      9%      25%     13%        16%         8%

41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   281     8%      20%     39%     19%        8%           2%
                                                                                          Urban   208     8%      20%     34%     20%        13%          2%




  KEY:

   1   = Strongly Agree
   2   = Moderately Agree
   3   = Slightly Agree
   4   = Slightly Disagree
   5   = Moderately Disagree
   6   = Strongly Disagree
 N/A   = No Response or Not Applicable




                                                                                                                                        Hospitals, Page A - 8
N/A
0%
1%

0%
2%

1%
1%

1%
2%

1%
3%

17%
22%

3%
3%




      Hospitals, Page A - 9
G. OVERALL ASSESSMENT (cont.)

                                                                                                   n    mean7   median7   mode7
35.       I have an excellent understanding of Y2K issues:                                Rural   281    2.23     2         2

                                                                                          Urban   205    1.72     2         1


36.	 I am very concerned about Y2K issues:                                                Rural   281   1.83      2         1

                                                                                          Urban   204   1.61      1         1


37.	 My hospital is currently Y2K ready:                                                  Rural   277   3.49      3         3

                                                                                          Urban   205   3.63      3         3


38.	 My hospital will be Y2K ready by December 31, 1999:                                  Rural   277   1.62      1         1

                                                                                          Urban   204   1.44      1         1


39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   278   1.79      1         1

                                                                                          Urban   201   1.60      1         1


40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   234   3.61      3         3

                                                                                          Urban   162   3.65      3         3


41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   273   3.07      3         3

                                                                                          Urban   202   3.18      3         3





     KEY:

      1   = Strongly Agree
      2   = Moderately Agree
      3   = Slightly Agree
      4   = Slightly Disagree
      5   = Moderately Disagree
      6   = Strongly Disagree
    N/A   = No Response or Not Applicable




7
    N/A responses were not used to calculate the mean, median, and mode.

                                                                                                                                  Hospitals, Page A - 10

H. INFORMATION ABOUT YOUR BUSINESS
                                                                                                          n
42.	 If your hospital is not currently Y2K ready, by what date do you expect to be Y2K ready?8   Rural   241   Largest Response Categories: 12/31/99 (19%), 6/30/99 (20%), 7/1/99 (12%)
                                                                                                 Urban   186   Largest Response Categories: 12/31/99 (16%), 6/30/99 (17%), 7/1/99 (11%)


43.	 What percentage of your business is represented by Medicare?8                               Rural   243   Approx. 1/2 answered between 45% and 65%. Median: 55%
                                                                                                 Urban   199   Approx. 1/2 answered between 35% and 55%. Median: 45%


44.	 Approximately how many acute-care beds does your hospital have?8                            Rural   275   Approx. 3/4 answered less than 80 beds. Median: 44 beds
                                                                                                 Urban   201   Approx. 1/2 answered between 100 and 350 beds. Median: 200 beds


                                                                                                          n       Yes            No          N/A
45.	 Is your facility part of a chain of hospitals?                                              Rural   281      21%           78%          0%
                                                                                                 Urban   208      42%           57%          0%

46.	 Are you a provider for a managed care organization?                                         Rural   281      58%           40%           2%
                                                                                                 Urban   208      75%           23%           2%

47.	 Do you provide services for Medicaid patients?                                              Rural   281      99%           0%            0%
                                                                                                 Urban   208      100%          0%            0%

                                                                                      8
48.	 How long could you continue to serve Medicare patients if payments were delayed?            Rural   237   Largest Response Categories: 1-2 months (43%), 3-6 months (24%)
                                                                                                 Urban   157   Largest Response Categories: 1-2 months (42%), 3-6 months (21%)

                                                                                             8
49.	 If you couldn't submit electronically due to Y2K problems, how would you submit claims?     Rural   223   Largest Response Categories: Paper Claims (87%), Don't Know (4%)
                                                                                                 Urban   161   Largest Response Categories: Paper Claims (82%), Will Be Ready (6%)




8
    Non-responses were not used in the analysis of these questions.
                                                                                                                                                            Hospitals, Page A - 10
      APPENDIX B





NURSING FACILITY SURVEY RESULTS





           )))))))))))
               B - 1

KEY:
  n   = number of responses
Yes   = percentage of n answering "Yes".
 No   = percentage of n answering "No".
DK    = percentage of n answering "Don't Know".
N/A   = percentage of n answering "Not Applicable" or providing no response.

All percentages may not total 100 percent due to rounding.

Applicable footnotes appear at the bottom of each page.


SURVEY RESPONSE RATES:

                                 Total          Number of        Number of       Response
                                Number         Surveys Mailed Surveys Returned     Rate
Rural Nursing Facilities         5,767              500             221            44%
Urban Nursing Facilities        10,982              500             191            38%
Total                           16,749             1000             412            41%




                                                                                            Nursing Facilities, Page B - 2
A. BACKGROUND

                                                                                                                    n    Yes    No         DK           N/A
1.   Do you contract with an external vendor for claims submission and payment activities?                 Rural   221   34%   62%         1%           3%
                                                                                                           Urban   191   28%   66%         1%           5%

2.	 Is an external vendor or contractor assisting in your effort to solve Y2K-related computer problems?   Rural   221   37%   53%         3%           7%
                                                                                                           Urban   191   38%   42%         7%           13%

3.	 Have you contacted an external vendor or contractor to assist you in completing this survey?           Rural   221   5%    89%         1%           5%
                                                                                                           Urban   191   4%    90%         1%           6%




B. Y2K AWARENESS AND PLANNING
                                                                                                                    n    Yes   No          DK           N/A
4.	 Have you thought about how Y2K problems could affect your facility?                                    Rural   221   95%   3%          1%           1%
                                                                                                           Urban   191   96%   2%          1%           1%

5.   Have you developed a strategy for dealing with potential Y2K problems associated with your:
       a. 	Billing/financial systems?                                                                      Rural   221   77%   15%         4%           4%
                                                                                                           Urban   191   82%   12%         3%           3%

        b. 	Clinical/medical records systems?                                                              Rural   221   76%   16%         5%           3%
                                                                                                           Urban   191   80%   10%         3%           7%

        c. 	Biomedical equipment?                                                                          Rural   221   49%   19%         9%           23%
                                                                                                           Urban   191   50%   18%         9%           23%

6.   Are you facing any of the following obstacles in identifying or fixing potential Y2K problems:
        a. Lack of financial resources?                                                                    Rural   221   19%   69%        10%           2%
                                                                                                           Urban   191   19%   73%        7%            2%

        b. Lack of skilled personnel?                                                                      Rural   221   23%   69%         6%           1%
                                                                                                           Urban   191   24%   71%         5%           1%

        c. Lack of vendor cooperation?                                                                     Rural   221   15%   72%        10%           3%
                                                                                                           Urban   191   12%   78%        7%            3%

        d. Lack of billing service cooperation?                                                            Rural   221   4%    76%         7%           13%
                                                                                                           Urban   191   5%    75%         4%           16%

7.   Have you thought about the impact to your facility if all systems are not Y2K ready?                  Rural   221   90%   7%          0%           3%
                                                                                                           Urban   191   90%   7%          1%           2%

                                                                                                                                Nursing Facilities, Page B - 3
B. Y2K AWARENESS AND PLANNING (cont.)
                                                                                                                   n    Yes    No        DK            N/A
8.     Have you developed contingency plans in case your facility experiences Y2K-related failures?       Rural   221   32%   55%        7%            5%
                                                                                                          Urban   191   32%   50%        12%           7%

9.	 If you have not developed contingency plans, do you plan to do so? 1                                  Rural   122   74%   7%         16%           4%
                                                                                                          Urban    95   82%   7%         7%            3%

10. Do you feel that your ability to provide quality care could be compromised by Y2K-related failures?   Rural   221   27%   61%        10%           3%
                                                                                                          Urban   191   27%   63%        9%            2%



C. COMPUTER SYSTEMS
                                                                                                                  n     Yes   No          DK           N/A
11. Have you made a complete inventory of your:
          a. Billing/financial systems?                                                                   Rural   221   76%   16%         3%           5%
                                                                                                          Urban   191   84%   10%         3%           3%

          b. Clinical/medical records systems?                                                            Rural   221   75%   16%         4%           6%
                                                                                                          Urban   191   83%   10%         4%           4%

          c. Biomedical equipment?                                                                        Rural   221   47%   19%        10%           24%
                                                                                                          Urban   191   45%   22%        12%           21%

12. Have you assessed the Y2K readiness of your:
          a. Billing/financial systems?                                                                   Rural   221   76%   15%         3%           5%
                                                                                                          Urban   191   83%   11%         4%           2%

          b. Clinical/medical records systems?                                                            Rural   221   78%   14%         3%           6%
                                                                                                          Urban   191   80%   13%         3%           4%

          c. Biomedical equipment?                                                                        Rural   221   44%   21%        9%            26%
                                                                                                          Urban   191   45%   22%        12%           21%

13. If necessary, have you renovated or replaced your:
          a. Billing/financial systems?                                                                   Rural   221   49%   32%         3%           16%
                                                                                                          Urban   191   54%   31%         3%           11%

          b. Clinical/medical records systems?                                                            Rural   221   48%   33%         3%           17%
                                                                                                          Urban   191   50%   31%         3%           15%

          c. Biomedical equipment?                                                                        Rural   221   19%   36%        10%           35%
                                                                                                          Urban   191   22%   37%        13%           28%

1
    Only analyzed if respondent answered "No" to question 8.                                                                   Nursing Facilities, Page B - 4
C. COMPUTER SYSTEMS (cont.)
                                                                                                                     n     Yes   No          DK           N/A
14. Have you tested your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   109   50%   36%         3%           11%
                                                                                                             Urban   104   56%   36%         1%           8%

          b. Clinical/medical records systems? 2                                                             Rural   105   52%   34%         3%           10%
                                                                                                             Urban    96   56%   32%         3%           8%

          c. Biomedical equipment? 2                                                                         Rural   42    36%   36%         7%           21%
                                                                                                             Urban   42    50%   29%         2%           19%

15. Have you begun to use your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   109   59%   39%         2%           1%
                                                                                                             Urban   104   62%   38%         0%           0%

          b. Clinical/medical records systems? 2                                                             Rural   105   67%   30%         1%           2%
                                                                                                             Urban    96   65%   35%         0%           0%

          c. Biomedical equipment? 2                                                                         Rural   42    48%   48%         2%           2%
                                                                                                             Urban   42    50%   45%         2%           2%

16. Are the following currently Y2K ready:
          a. Billing/financial systems?                                                                      Rural   221   48%   37%        11%           5%
                                                                                                             Urban   191   49%   39%        9%            3%

          b. Clinical/medical records systems?                                                               Rural   221   52%   32%        10%           5%
                                                                                                             Urban   191   54%   30%        10%           6%

          c. Biomedical equipment?                                                                           Rural   221   21%   25%        23%           31%
                                                                                                             Urban   191   21%   28%        25%           27%

17. Will the following be Y2K ready by December 31, 1999:
          a. Billing/financial systems? 3                                                                    Rural   105   80%   2%         18%           0%
                                                                                                             Urban    92   84%   0%         16%           0%

          b. Clinical/medical records systems? 3                                                             Rural   93    77%   2%         20%           0%
                                                                                                             Urban   77    78%   1%         21%           0%

          c. Biomedical equipment? 3                                                                         Rural   106   63%   3%         33%           1%
                                                                                                             Urban   100   62%   5%         33%           0%


2
    Only analyzed if respondent answered "Yes" to question 13a, 13b, or 13c, respectively.
3
    Only analyzed if respondent answered "No" or "Don't Know" to question 16a, 16,b, or 16c, respectively.
                                                                                                                                  Nursing Facilities, Page B - 5
D. MEDICARE CLAIM FILING

                                                                                                                              n    Yes    No         DK           N/A
18. Are you aware that several fields on HCFA claim forms now require or will soon require 8-digit dates?            Rural   221   67%   22%         3%           9%
                                                                                                                     Urban   191   76%   14%         6%           5%

19. Can you:
          a. 	Enter 8-digit dates in the required fields of the paper HCFA Form 1450?                                Rural   221   34%   15%        27%           24%
                                                                                                                     Urban   191   37%   15%        26%           22%

          b. 	Enter 8-digit dates in the required fields of the paper HCFA Form 1500?                                Rural   221   33%   14%        25%           28%
                                                                                                                     Urban   191   36%   15%        26%           24%

20. Can you:
          a. 	Enter 8-digit dates in the required fields of the electronic UB-92 (UB-92/X12 837)?                    Rural   221   40%   20%        25%           14%
                                                                                                                     Urban   191   52%   17%        23%           7%

          b. 	Enter 8-digit dates in the required fields of the electronic HCFA Form 1500 (NSF/X12 837)?             Rural   221   30%   14%        27%           29%
                                                                                                                     Urban   191   36%   12%        27%           24%

21.	 Will you be able to enter 8-digit dates in these fields in the next six months? 4                               Rural   107   39%   5%         55%           1%
                                                                                                                     Urban    89   43%   6%         51%           1%




E. MEDICARE CONTRACTOR EFFORTS
                                                                                                                              n    Yes    No        DK            N/A
22.	 Has your Medicare contractor sent you information on Y2K or offered assistance with Y2K issues?                 Rural   221   42%   31%        13%           14%
                                                                                                                     Urban   191   41%   29%        18%           12%

23.	 Have efforts from your Medicare contractor increased your Y2K awareness?                                        Rural   221   27%   49%        7%            18%
                                                                                                                     Urban   191   30%   41%        13%           15%

24.	 Are you aware that Medicare contractors have free Y2K-ready billing software available for use?                 Rural   221   16%   62%        5%            18%
                                                                                                                     Urban   191   26%   48%        13%           14%

25.	 Have you requested Y2K-ready software from your Medicare contractor?                                            Rural   221   11%   66%         6%           17%
                                                                                                                     Urban   191   19%   60%         9%           12%

26.	 Have you received Y2K-ready software from your Medicare contractor? 5                                           Rural   221   10%   60%         9%           21%
                                                                                                                     Urban   191   17%   60%         9%           14%


4
    Only analyzed if respondent answered "No" or "Don't Know" to question 20.

5
    Rural NF: 16 of 24 who requested software received it. Urban NF: 29 of 36 who requested software received it.

                                                                                                                                          Nursing Facilities, Page B - 6
E. MEDICARE CONTRACTOR EFFORTS (cont.)
                                                                                                                  n     Yes    No         DK           N/A
27.	 Have you installed the Y2K-ready software provided by your Medicare contractor? 6                    Rural   22    91%   9%          0%           0%
                                                                                                          Urban   33    79%   18%         0%           3%

28.	 Have you submitted any claims using the Y2K-ready software provided by your Medicare contractor? 6   Rural   22    59%   32%         5%           5%
                                                                                                          Urban   33    61%   36%         0%           3%

29.	 Does your Medicare contractor's Y2K-ready software function properly? 6                              Rural   22    55%   0%         32%           14%
                                                                                                          Urban   33    73%   3%         21%           3%




F. VENDORS AND CONTRACTORS
                                                                                                                   n    Yes    No         DK           N/A
30.	 Have you identified all external vendors and contractors with whom you conduct business?             Rural   221   59%   30%         6%           5%
                                                                                                          Urban   191   69%   18%         7%           6%

31.	 Have you discussed Y2K issues with your vendors and contractors?                                     Rural   221   59%   31%         5%           5%
                                                                                                          Urban   191   59%   27%         8%           6%

32.	 Have you received certification from vendors and contractors that their systems will be Y2K ready?   Rural   221   33%   51%        9%            8%
                                                                                                          Urban   191   31%   47%        12%           10%

33.	 Do your contracts with vendors and contractors guarantee Y2K readiness?                              Rural   221   25%   43%        26%           6%
                                                                                                          Urban   191   32%   34%        27%           7%

34.	 Have you tested Y2K data exchange between your systems and your vendors and contractors?             Rural   221   13%   71%        7%            10%
                                                                                                          Urban   191   15%   63%        10%           12%




6
    Only analyzed if respondent answered "Yes" to question 26.                                                                 Nursing Facilities, Page B - 7
G. OVERALL ASSESSMENT

                                                                                                        Strongly                                 Strongly
                                                                                                         Agree…….….......….….…………..……………......…..Disagree
                                                                                                   n        1     2          3      4    5           6
35. I have an excellent understanding of Y2K issues:                                      Rural   221     14%    23%        30%   17%   8%          5%
                                                                                          Urban   191     23%    26%        28%    9%   3%          6%

36.	 I am very concerned about Y2K issues:                                                Rural   221    34%      23%     26%     10%          2%          2%
                                                                                          Urban   191    32%      24%     26%     8%           6%          1%

37.	 My facility is currently Y2K ready:                                                  Rural   221     7%      14%     29%     16%         18%          11%
                                                                                          Urban   191     5%      15%     31%     17%         15%          10%

38.	 My facility will be Y2K ready by December 31, 1999:                                  Rural   221    43%      29%     14%      5%          2%          1%
                                                                                          Urban   191    53%      25%     9%       5%          1%          1%

39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   221    45%      22%     14%      3%          5%          1%
                                                                                          Urban   191    58%      20%     7%       5%          3%          1%

40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   221    9%       10%     19%     16%         13%          13%
                                                                                          Urban   191    10%      12%     19%     17%         13%          9%

41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   221     5%      12%     35%     15%         14%          8%
                                                                                          Urban   191     8%      16%     31%     20%         10%          5%




  KEY:

   1   = Strongly Agree
   2   = Moderately Agree
   3   = Slightly Agree
   4   = Slightly Disagree
   5   = Moderately Disagree
   6   = Strongly Disagree
 N/A   = No Response or Not Applicable




                                                                                                                                 Nursing Facilities, Page B - 8
N/A
3%
5%

3%
4%

3%
7%

6%
7%

10%
6%

21%
20%

11%
10%




      Nursing Facilities, Page B - 9
G. OVERALL ASSESSMENT (cont.)

                                                                                                   n    mean7   median7   mode7
35.       I have an excellent understanding of Y2K issues:                                Rural   215    2.95     3         3

                                                                                          Urban   181    2.57     2         3


36.	 I am very concerned about Y2K issues:                                                Rural   215   2.28      2         1

                                                                                          Urban   184   2.32      2         1


37.	 My facility is currently Y2K ready:                                                  Rural   214   3.59      3         3

                                                                                          Urban   177   3.56      3         3


38.	 My facility will be Y2K ready by December 31, 1999:                                  Rural   208   1.92      2         1

                                                                                          Urban   178   1.71      1         1


39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   199   1.92      1         1

                                                                                          Urban   179   1.68      1         1


40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   175   3.66      4         3

                                                                                          Urban   153   3.50      3         3


41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   197   3.48      3         3

                                                                                          Urban   172   3.26      3         3





     KEY:

      1   = Strongly Agree
      2   = Moderately Agree
      3   = Slightly Agree
      4   = Slightly Disagree
      5   = Moderately Disagree
      6   = Strongly Disagree
    N/A   = No Response or Not Applicable




7
    N/A responses were not used to calculate the mean, median, and mode.

                                                                                                                           Nursing Facilities, Page B - 10

H. INFORMATION ABOUT YOUR BUSINESS
                                                                                                          n
42.	 If your facility is not currently Y2K ready, by what date do you expect to be Y2K ready?8   Rural   137   Largest Response Categories: 12/31/99 (26%), 6/30/99 (17%), 7/1/99 (10%)
                                                                                                 Urban   126   Largest Response Categories: 12/31/99 (29%), 6/30/99 (14%), 6/1/99 (7%)


43.	 What percentage of your business is represented by Medicare?8                               Rural   202   Approx. 3/4 of responses were below 25%. Median:10%
                                                                                                 Urban   183   Approx. 3/4 of responses were below 20%. Median:10%


44.	 Approximately how many beds does your nursing facility have?8                               Rural   206   Approx. 1/2 answered between 52 and 106. Median: 82
                                                                                                 Urban   179   Approx. 1/2 answered between 64 and 164. Median: 101


                                                                                                          n       Yes            No          N/A
45.	 Is your facility part of a national chain?                                                  Rural   221      30%           67%          2%
                                                                                                 Urban   191      32%           65%          3%

46.	 Is your facility free-standing?                                                             Rural   221      70%           26%           5%
                                                                                                 Urban   191      72%           24%           4%

47.	 Are you a provider for a managed care organization?                                         Rural   221      22%           75%           3%
                                                                                                 Urban   191      51%           45%           4%

48.	 Do you provide services for Medicaid patients?                                              Rural   221      95%           2%            3%
                                                                                                 Urban   191      94%           4%            2%

                                                                                      8
49.	 How long could you continue to serve Medicare patients if payments were delayed?            Rural   176   Largest Response Categories: 1-2 months (28%), 3-6 months (21%)
                                                                                                 Urban   142   Largest Response Categories: 1-2 months (30%), 3-6 months (19%)

                                                                                             8
50.	 If you couldn't submit electronically due to Y2K problems, how would you submit claims?     Rural   162   Largest Response Categories: Paper Claims (71%), Don't Know (13%)
                                                                                                 Urban   137   Largest Response Categories: Paper Claims (68%), Don't Know (9%)




8
    Non-responses were not used in the analysis of these questions.
                                                                                                                                                     Nursing Facilities, Page B - 10
        APPENDIX C





HOME HEALTH AGENCY SURVEY RESULTS





            )))))))))))
                C - 1

KEY:
  n   = number of responses
Yes   = percentage of n answering "Yes".
 No   = percentage of n answering "No".
DK    = percentage of n answering "Don't Know".
N/A   = percentage of n answering "Not Applicable" or providing no response.

All percentages may not total 100 percent due to rounding.

Applicable footnotes appear at the bottom of each page.


SURVEY RESPONSE RATES:

                                      Total          Number of        Number of       Response
                                     Number         Surveys Mailed Surveys Returned     Rate
Rural Home Health Agencies            2,905              500             136            27%
Urban Home Health Agencies            6,193              500             133            27%
Total                                 9,098             1000             269            27%




                                                                                          Home Health Agencies, Page C - 2
A. BACKGROUND

                                                                                                                    n    Yes      No          DK          N/A
1.   Do you contract with an external vendor for claims submission and payment activities?                 Rural   136   34%     64%          1%          1%
                                                                                                           Urban   133   41%     56%          2%          2%

2.	 Is an external vendor or contractor assisting in your effort to solve Y2K-related computer problems?   Rural   136   51%     39%          3%          7%
                                                                                                           Urban   133   50%     40%          2%          9%

3.	 Have you contacted an external vendor or contractor to assist you in completing this survey?           Rural   136   5%      88%          0%          7%
                                                                                                           Urban   133   12%     80%          0%          8%




B. Y2K AWARENESS AND PLANNING
                                                                                                                    n    Yes      No          DK          N/A
4.	 Have you thought about how Y2K problems could affect your agency?                                      Rural   136   98%      1%          1%          0%
                                                                                                           Urban   133   99%      1%          0%          0%

5.   Have you developed a strategy for dealing with potential Y2K problems associated with your:
       a. 	Billing/financial systems?                                                                      Rural   136   79%     15%          5%          0%
                                                                                                           Urban   133   83%     14%          2%          2%

        b. 	Clinical/medical records systems?                                                              Rural   136   76%     15%          1%          7%
                                                                                                           Urban   133   78%     13%          2%          7%

        c. 	Biomedical equipment?                                                                          Rural   136   49%     13%          4%         35%
                                                                                                           Urban   133   49%     14%          5%         33%

6.   Are you facing any of the following obstacles in identifying or fixing potential Y2K problems:
        a. Lack of financial resources?                                                                    Rural   136   36%     57%          7%          0%
                                                                                                           Urban   133   39%     50%          6%          5%

        b. Lack of skilled personnel?                                                                      Rural   136   29%     67%          4%          0%
                                                                                                           Urban   133   32%     62%          5%          2%

        c. Lack of vendor cooperation?                                                                     Rural   136   13%     77%          6%          4%
                                                                                                           Urban   133   11%     76%          9%          5%

        d. Lack of billing service cooperation?                                                            Rural   136   8%      71%          5%         16%
                                                                                                           Urban   133   7%      71%          5%         17%

7.   Have you thought about the impact to your agency if all systems are not Y2K ready?                    Rural   136   96%      3%          1%          0%
                                                                                                           Urban   133   99%      1%          0%          0%

                                                                                                                               Home Health Agencies, Page C - 3
B. Y2K AWARENESS AND PLANNING (cont.)
                                                                                                                   n    Yes      No          DK          N/A
8.     Have you developed contingency plans in case your agency experiences Y2K-related failures?         Rural   136   34%     59%          6%          1%
                                                                                                          Urban   133   42%     52%          4%          2%

9.	 If you have not developed contingency plans, do you plan to do so? 1                                  Rural   80    75%      5%         20%          0%
                                                                                                          Urban   69    81%      7%         9%           3%

10. Do you feel that your ability to provide quality care could be compromised by Y2K-related failures?   Rural   136   31%     60%          9%          0%
                                                                                                          Urban   133   24%     66%          8%          2%



C. COMPUTER SYSTEMS
                                                                                                                  n     Yes      No          DK          N/A
11. Have you made a complete inventory of your:
          a. Billing/financial systems?                                                                   Rural   136   84%     12%          3%          1%
                                                                                                          Urban   133   83%     14%          2%          0%

          b. Clinical/medical records systems?                                                            Rural   136   79%     13%          3%          6%
                                                                                                          Urban   133   78%     14%          2%          5%

          c. Biomedical equipment?                                                                        Rural   136   49%     10%          2%         39%
                                                                                                          Urban   133   48%     14%          5%         34%

12. Have you assessed the Y2K readiness of your:
          a. Billing/financial systems?                                                                   Rural   136   82%     13%          4%          0%
                                                                                                          Urban   133   90%     8%           2%          0%

          b. Clinical/medical records systems?                                                            Rural   136   76%     13%          3%          7%
                                                                                                          Urban   133   80%     14%          2%          5%

          c. Biomedical equipment?                                                                        Rural   136   43%     13%          4%         40%
                                                                                                          Urban   133   43%     17%          5%         35%

13. If necessary, have you renovated or replaced your:
          a. Billing/financial systems?                                                                   Rural   136   38%     46%          4%         13%
                                                                                                          Urban   133   48%     37%          2%         14%

          b. Clinical/medical records systems?                                                            Rural   136   30%     44%          4%         22%
                                                                                                          Urban   133   42%     35%          1%         22%

          c. Biomedical equipment?                                                                        Rural   136   16%     35%          3%         46%
                                                                                                          Urban   133   19%     32%          5%         44%

1
    Only analyzed if respondent answered "No" to question 8.                                                                  Home Health Agencies, Page C - 4
C. COMPUTER SYSTEMS (cont.)
                                                                                                                     n     Yes      No          DK          N/A
14. Have you tested your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   51    63%     31%          2%          4%
                                                                                                             Urban   64    59%     36%          2%          3%

          b. Clinical/medical records systems? 2                                                             Rural   41    71%     22%          2%          5%
                                                                                                             Urban   56    61%     36%          2%          2%

          c. Biomedical equipment? 2                                                                         Rural   22    59%     27%          5%          9%
                                                                                                             Urban   25    64%     24%          8%          4%

15. Have you begun to use your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   51    61%     31%          2%          6%
                                                                                                             Urban   64    66%     31%          2%          2%

          b. Clinical/medical records systems? 2                                                             Rural   41    66%     32%          0%          2%
                                                                                                             Urban   56    63%     34%          2%          2%

          c. Biomedical equipment? 2                                                                         Rural   22    68%     23%          0%          9%
                                                                                                             Urban   25    64%     28%          0%          8%

16. Are the following currently Y2K ready:
          a. Billing/financial systems?                                                                      Rural   136   49%     38%         12%          2%
                                                                                                             Urban   133   50%     37%         11%          3%

          b. Clinical/medical records systems?                                                               Rural   136   47%     32%         10%         11%
                                                                                                             Urban   133   51%     29%         8%          11%

          c. Biomedical equipment?                                                                           Rural   136   26%     23%         10%         41%
                                                                                                             Urban   133   21%     26%         14%         39%

17. Will the following be Y2K ready by December 31, 1999:
          a. Billing/financial systems? 3                                                                    Rural   67    70%      6%         24%          0%
                                                                                                             Urban   63    75%      3%         22%          0%

          b. Clinical/medical records systems? 3                                                             Rural   57    63%      5%         30%          2%
                                                                                                             Urban   50    80%      2%         18%          0%

          c. Biomedical equipment? 3                                                                         Rural   45    60%      4%         29%          7%
                                                                                                             Urban   53    68%      2%         26%          4%


2
    Only analyzed if respondent answered "Yes" to question 13a, 13b, or 13c, respectively.
3
    Only analyzed if respondent answered "No" or "Don't Know" to question 16a, 16,b, or 16c, respectively.
                                                                                                                                 Home Health Agencies, Page C - 5
D. MEDICARE CLAIM FILING

                                                                                                                         n    Yes      No          DK          N/A
18. Are you aware that several fields on HCFA claim forms now require or will soon require 8-digit dates?       Rural   136   81%     15%          3%          1%
                                                                                                                Urban   133   89%     8%           2%          2%

19.	 Can you enter 8-digit dates in the required fields of the paper HCFA Form 1450?                            Rural   136   54%     14%         24%         8%
                                                                                                                Urban   133   56%     11%         17%         16%

20.	 Can you enter 8-digit dates in the required fields of the electronic UB-92 (UB-92/X12 837)?                Rural   136   55%     16%         24%          4%
                                                                                                                Urban   133   63%     18%         16%          3%

21.	 Will you be able to enter 8-digit dates in these fields in the next six months? 4                          Rural   55    38%      0%         62%          0%
                                                                                                                Urban   45    71%      2%         27%          0%




E. MEDICARE CONTRACTOR EFFORTS
                                                                                                                         n    Yes      No         DK           N/A
22.	 Has your Medicare contractor sent you information on Y2K or offered assistance with Y2K issues?            Rural   136   54%     28%         11%          7%
                                                                                                                Urban   133   57%     27%         11%          5%

23.	 Have efforts from your Medicare contractor increased your Y2K awareness?                                   Rural   136   38%     44%          6%         12%
                                                                                                                Urban   133   42%     48%          5%         5%

24.	 Are you aware that Medicare contractors have free Y2K-ready billing software available for use?            Rural   136   33%     52%          8%          7%
                                                                                                                Urban   133   41%     50%          5%          5%

25.	 Have you requested Y2K-ready software from your Medicare contractor?                                       Rural   136   21%     65%          7%          7%
                                                                                                                Urban   133   22%     68%          8%          3%

26.	 Have you received Y2K-ready software from your Medicare contractor? 5                                      Rural   136   15%     67%          9%         10%
                                                                                                                Urban   133   17%     70%          7%         6%

27.	 Have you installed the Y2K-ready software provided by your Medicare contractor? 6                          Rural   20    70%     30%          0%          0%
                                                                                                                Urban   23    74%     22%          4%          0%

28.	 Have you submitted any claims using the Y2K-ready software provided by your Medicare contractor? 6         Rural   20    55%     45%          0%          0%
                                                                                                                Urban   23    65%     30%          0%          4%

29.	 Does your Medicare contractor's Y2K-ready software function properly? 6                                    Rural   20    55%      0%         40%         5%
                                                                                                                Urban   23    65%      0%         22%         13%

4
  Only analyzed if respondent answered "No" or "Don't Know" to question 20.

5
  Rural HHA: 16 of 29 who requested software received it. Urban HHA: 19 of 29 who requested software received it.

6
  Only analyzed if respondent answered "Yes" to question 26.                                                                        Home Health Agencies, Page C - 6
F. VENDORS AND CONTRACTORS

                                                                                                                   n    Yes      No          DK          N/A
30. Have you identified all external vendors and contractors with whom you conduct business?              Rural   136   68%     16%          7%          9%
                                                                                                          Urban   133   73%     17%          4%          6%

31. Have you discussed Y2K issues with your vendors and contractors?                                      Rural   136   65%     20%          5%         10%
                                                                                                          Urban   133   65%     27%          3%         5%

32.	 Have you received certification from vendors and contractors that their systems will be Y2K ready?   Rural   136   46%     31%         13%         10%
                                                                                                          Urban   133   50%     40%         6%          5%

33.	 Do your contracts with vendors and contractors guarantee Y2K readiness?                              Rural   136   38%     30%         21%         11%
                                                                                                          Urban   133   41%     34%         21%         5%

34.	 Have you tested Y2K data exchange between your systems and your vendors and contractors?             Rural   136   10%     71%         10%         10%
                                                                                                          Urban   133   18%     66%         8%          8%




                                                                                                                              Home Health Agencies, Page C - 7
G. OVERALL ASSESSMENT

                                                                                                        Strongly                                 Strongly
                                                                                                         Agree…….….......….….…………..……………......…..Disagree
                                                                                                   n        1     2          3     4     5           6
35. I have an excellent understanding of Y2K issues:                                      Rural   136     15%    31%        24%   18%   5%          7%
                                                                                          Urban   133     20%    26%        32%   11%   8%          3%

36.	 I am very concerned about Y2K issues:                                                Rural   136    34%      30%     21%      10%         2%         3%
                                                                                          Urban   133    40%      26%     20%      8%          2%         2%

37.	 My agency is currently Y2K ready:                                                    Rural   136    9%       26%     24%      14%        15%        13%
                                                                                          Urban   133    13%      17%     23%      17%        13%        16%

38.	 My agency will be Y2K ready by December 31, 1999:                                    Rural   136    55%      23%     10%       3%         5%         1%
                                                                                          Urban   133    61%      26%     7%        1%         1%         1%

39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   136    55%      19%     14%       4%         4%         4%
                                                                                          Urban   133    64%      23%     4%        3%         2%         2%

40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   136    9%       13%     26%      18%        12%        14%
                                                                                          Urban   133    12%      14%     21%      17%        8%         15%

41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   136    15%      20%     28%      17%         7%         6%
                                                                                          Urban   133    19%      20%     30%      12%         5%         6%




  KEY:

   1   = Strongly Agree
   2   = Moderately Agree
   3   = Slightly Agree
   4   = Slightly Disagree
   5   = Moderately Disagree
   6   = Strongly Disagree
 N/A   = No Response or Not Applicable




                                                                                                                             Home Health Agencies, Page C - 8
N/A
0%
1%

0%
2%

1%
1%

3%
5%

1%
2%

9%
13%

7%
8%




      Home Health Agencies, Page C - 9
G. OVERALL ASSESSMENT (cont.)

                                                                                                   n    mean7   median7      mode7
35.       I have an excellent understanding of Y2K issues:                                Rural   136    2.87     3            2

                                                                                          Urban   132    2.70     3            3


36.	 I am very concerned about Y2K issues:                                                Rural   136   2.25      2             1

                                                                                          Urban   131   2.10      2             1


37.	 My business is currently Y2K ready:                                                  Rural   135   3.38      3             2

                                                                                          Urban   132   3.48      3             3


38.	 My business will be Y2K ready by December 31, 1999:                                  Rural   132   1.81      1             1

                                                                                          Urban   127   1.50      1             1


39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   135   1.92      1             1

                                                                                          Urban   131   1.61      1             1


40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   124   3.58      3             3

                                                                                          Urban   116   3.45      3             3


41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   126   3.00      3             3

                                                                                          Urban   122   2.80      3             3





     KEY:

      1   = Strongly Agree
      2   = Moderately Agree
      3   = Slightly Agree
      4   = Slightly Disagree
      5   = Moderately Disagree
      6   = Strongly Disagree
    N/A   = No Response or Not Applicable




7
    N/A responses were not used to calculate the mean, median, and mode.

                                                                                                                          Home Health Agencies, Page C - 10 

H. INFORMATION ABOUT YOUR BUSINESS

                                                                                                         n
42.	 If your agency is not currently Y2K ready, by what date do you expect to be Y2K ready?8     Rural   85    Largest Response Categories: 12/31/99 (22%), 6/1/99 (12%), 71/99 (11%)
                                                                                                 Urban   97    Largest Response Categories: 12/31/99 (30%), 6/30/99 (13%), 7/1/99/99 (11%)


43.	 What percentage of your business is represented by Medicare?8                               Rural   132   Approx. 3/4 answered more than 70 percent. Median: 85%
                                                                                                 Urban   126   Approx. 3/4 answered more than 60 percent. Median: 80%


44.	 Approximately how many patients does your agency see per year?8                             Rural   122   Approx. 3/4 answered 570 or less. Median: 225
                                                                                                 Urban   121   Approx. 3/4 answered 600 or less. Median: 300


                                                                                                                  Yes            No           N/A
45.	 Is your agency free-standing?                                                               Rural   136      46%           50%           4%
                                                                                                 Urban   133      43%           55%           2%

46.	 Are you a provider for a managed care organization?                                         Rural   136      38%           60%           3%
                                                                                                 Urban   133      42%           57%           1%

47.	 Do you provide services for Medicaid patients?                                              Rural   136      90%            7%           3%
                                                                                                 Urban   133      96%            4%           0%

                                                                                      8
48.	 How long could you continue to serve Medicare patients if payments were delayed?            Rural   117   Largest Response Categories: 1-2 months (38%), 3-6 months (18%)
                                                                                                 Urban   116   Largest Response Categories: 1-2 months (38%), 3-6 months (19%)

                                                                                             8
49.	 If you couldn't submit electronically due to Y2K problems, how would you submit claims?     Rural   113   Largest Response Categories: Paper Claims (82%), Don't Know (8%)
                                                                                                 Urban   111   Largest Response Categories: Paper Claims (85%), Don't Know (5%)




8
    Non-responses were not used in the analysis of these questions.
                                                                                                                                             Home Health Agencies, Page C - 10
                APPENDIX D





DURABLE MEDICAL EQUIPMENT SUPPLIER SURVEY RESULTS





                    )))))))))))
                        D - 1

KEY:
  n   = number of responses
Yes   = percentage of n answering "Yes".
 No   = percentage of n answering "No".
DK    = percentage of n answering "Don't Know".
N/A   = percentage of n answering "Not Applicable" or providing no response.

All percentages may not total 100 percent due to rounding.

Applicable footnotes appear at the bottom of each page.


SURVEY RESPONSE RATES:

                               Total         Number of        Number of        Response
                             Number         Surveys Mailed Surveys Returned      Rate
Rural DME Suppliers           24,612             500             145             29%
Urban DME Suppliers           84,817             500             117             23%
Total                        109,429            1000             262             26%




                                                                                 Durable Medical Equipment Suppliers, Page D - 2
A. BACKGROUND

                                                                                                                    n        Yes          No          DK          N/A
1.   Do you contract with an external vendor for claims submission and payment activities?                 Rural   145       28%         70%          0%          2%
                                                                                                           Urban   117       32%         59%          2%          7%

2.	 Is an external vendor or contractor assisting in your effort to solve Y2K-related computer problems?   Rural   145       46%         38%          3%          14%
                                                                                                           Urban   117       47%         32%          3%          18%

3.	 Have you contacted an external vendor or contractor to assist you in completing this survey?           Rural   145       4%          86%          1%          10%
                                                                                                           Urban   117       12%         79%          0%          9%




B. Y2K AWARENESS AND PLANNING
                                                                                                                    n        Yes          No          DK          N/A
4.	 Have you thought about how Y2K problems could affect your business?                                    Rural   145       92%          5%          1%          3%
                                                                                                           Urban   117       92%          2%          1%          5%

5.   Have you developed a strategy for dealing with potential Y2K problems associated with your:
       a. 	Billing/financial systems?                                                                      Rural   145       73%         19%          2%           6%
                                                                                                           Urban   117       75%         11%          5%           9%

        b. 	Clinical/medical records systems?                                                              Rural   145       68%         16%          2%          14%
                                                                                                           Urban   117       62%         11%          4%          23%

        c. 	Biomedical equipment?                                                                          Rural   145       37%         19%          6%          38%
                                                                                                           Urban   117       41%         15%          8%          36%

6.   Are you facing any of the following obstacles in identifying or fixing potential Y2K problems:
        a. Lack of financial resources?                                                                    Rural   145       16%         71%          7%           6%
                                                                                                           Urban   117       13%         74%          5%           9%

        b. Lack of skilled personnel?                                                                      Rural   145       21%         69%          5%           5%
                                                                                                           Urban   117       16%         73%          3%           8%

        c. Lack of vendor cooperation?                                                                     Rural   145        8%         77%          10%          5%
                                                                                                           Urban   117        3%         81%          7%           9%

        d. Lack of billing service cooperation?                                                            Rural   145        5%         72%          5%          19%
                                                                                                           Urban   117        2%         70%          5%          23%

7.   Have you thought about the impact to your business if all systems are not Y2K ready?                  Rural   145       90%          6%          1%           3%
                                                                                                           Urban   117       90%          2%          3%           6%

                                                                                                                         Durable Medical Equipment Suppliers, Page D - 3
B. Y2K AWARENESS AND PLANNING (cont.)
                                                                                                                   n        Yes          No          DK          N/A
8.     Have you developed contingency plans in case your business experiences Y2K-related failures?       Rural   145       32%         58%          6%          5%
                                                                                                          Urban   117       29%         56%          5%          10%

9.	 If you have not developed contingency plans, do you plan to do so? 1                                  Rural   84        61%         17%          19%          4%
                                                                                                          Urban   65        72%         11%          17%          0%

10. Do you feel that your ability to provide quality care could be compromised by Y2K-related failures?   Rural   145       28%         57%          12%          3%
                                                                                                          Urban   117       27%         64%          4%           5%



C. COMPUTER SYSTEMS
                                                                                                                  n         Yes          No          DK          N/A
11. Have you made a complete inventory of your:
          a. Billing/financial systems?                                                                   Rural   145       72%         16%          5%           8%
                                                                                                          Urban   117       68%         22%          2%           9%

          b. Clinical/medical records systems?                                                            Rural   145       68%         12%          4%          16%
                                                                                                          Urban   117       58%         21%          2%          20%

          c. Biomedical equipment?                                                                        Rural   145       35%         19%          9%          37%
                                                                                                          Urban   117       38%         17%          5%          39%

12. Have you assessed the Y2K readiness of your:
          a. Billing/financial systems?                                                                   Rural   145       81%         10%          3%           6%
                                                                                                          Urban   117       73%         18%          1%           9%

          b. Clinical/medical records systems?                                                            Rural   145       71%         12%          3%          14%
                                                                                                          Urban   117       62%         15%          2%          22%

          c. Biomedical equipment?                                                                        Rural   145       37%         17%          7%          39%
                                                                                                          Urban   117       36%         17%          5%          42%

13. If necessary, have you renovated or replaced your:
          a. Billing/financial systems?                                                                   Rural   145       49%         29%          3%          19%
                                                                                                          Urban   117       39%         30%          3%          28%

          b. Clinical/medical records systems?                                                            Rural   145       43%         26%          3%          29%
                                                                                                          Urban   117       25%         35%          3%          38%

          c. Biomedical equipment?                                                                        Rural   145       17%         28%          6%          50%
                                                                                                          Urban   117       13%         28%          5%          54%

1
    Only analyzed if respondent answered "No" to question 8.                                                            Durable Medical Equipment Suppliers, Page D - 4
C. COMPUTER SYSTEMS (cont.)
                                                                                                                     n         Yes          No          DK          N/A
14. Have you tested your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   71        61%         37%          0%           3%
                                                                                                             Urban   46        80%         20%          0%           0%

          b. Clinical/medical records systems? 2                                                             Rural   62        58%         37%          2%           3%
                                                                                                             Urban   29        86%         14%          0%           0%

          c. Biomedical equipment? 2                                                                         Rural   24        54%         42%          4%           0%
                                                                                                             Urban   15        80%         20%          0%           0%

15. Have you begun to use your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   71        72%         25%          0%           3%
                                                                                                             Urban   46        76%         22%          0%           2%

          b. Clinical/medical records systems? 2                                                             Rural   62        60%         35%          2%           3%
                                                                                                             Urban   29        79%         21%          0%           0%

          c. Biomedical equipment? 2                                                                         Rural   24        67%         25%          4%           4%
                                                                                                             Urban   15        73%         27%          0%           0%

16. Are the following currently Y2K ready:
          a. Billing/financial systems?                                                                      Rural   145       59%         26%          8%          8%
                                                                                                             Urban   117       56%         28%          4%          11%

          b. Clinical/medical records systems?                                                               Rural   145       51%         22%          10%         17%
                                                                                                             Urban   117       45%         22%          8%          25%

          c. Biomedical equipment?                                                                           Rural   145       23%         17%          16%         44%
                                                                                                             Urban   117       28%         14%          15%         44%

17. Will the following be Y2K ready by December 31, 1999:
          a. Billing/financial systems? 3                                                                    Rural   49        82%          0%          18%          0%
                                                                                                             Urban   38        79%          5%          11%          5%

          b. Clinical/medical records systems? 3                                                             Rural   46        80%          2%          17%          0%
                                                                                                             Urban   35        83%          6%          9%           3%

          c. Biomedical equipment? 3                                                                         Rural   47        64%          0%          34%          2%
                                                                                                             Urban   33        64%          6%          24%          6%


2
    Only analyzed if respondent answered "Yes" to question 13a, 13b, or 13c, respectively.
3
    Only analyzed if respondent answered "No" or "Don't Know" to question 16a, 16,b, or 16c, respectively.
                                                                                                                           Durable Medical Equipment Suppliers, Page D - 5
D. MEDICARE CLAIM FILING

                                                                                                                         n        Yes          No          DK          N/A
18. Are you aware that several fields on HCFA claim forms now require or will soon require 8-digit dates?       Rural   145       75%         19%          3%          3%
                                                                                                                Urban   117       74%         17%          2%          7%

19.	 Can you enter 8-digit dates in the required fields of the paper HCFA Form 1500?                            Rural   145       65%         12%          16%         7%
                                                                                                                Urban   117       69%         12%          7%          12%

20.	 Can you enter 8-digit dates in the required fields of the electronic HCFA Form 1500 (NSF/X12 837)?         Rural   145       50%         14%          21%         15%
                                                                                                                Urban   117       55%         13%          15%         17%

21.	 Will you be able to enter 8-digit dates in these fields in the next six months? 4                          Rural   51        51%          0%          49%          0%
                                                                                                                Urban   33        45%          3%          48%          3%




E. MEDICARE CONTRACTOR EFFORTS
                                                                                                                         n        Yes          No          DK          N/A
22.	 Has your Medicare contractor sent you information on Y2K or offered assistance with Y2K issues?            Rural   145       42%         30%          10%         19%
                                                                                                                Urban   117       41%         29%          15%         15%

23.	 Have efforts from your Medicare contractor increased your Y2K awareness?                                   Rural   145       34%         34%          8%          23%
                                                                                                                Urban   117       38%         41%          7%          15%

24.	 Are you aware that Medicare contractors have free Y2K-ready billing software available for use?            Rural   145       23%         58%          4%          15%
                                                                                                                Urban   117       29%         48%          9%          14%

25.	 Have you requested Y2K-ready software from your Medicare contractor?                                       Rural   145       15%         65%          2%          18%
                                                                                                                Urban   117       14%         66%          4%          16%

26.	 Have you received Y2K-ready software from your Medicare contractor? 5                                      Rural   145       18%         57%          6%          19%
                                                                                                                Urban   117       13%         64%          7%          16%

27.	 Have you installed the Y2K-ready software provided by your Medicare contractor? 6                          Rural   26        77%         15%          0%           8%
                                                                                                                Urban   15       100%         0%           0%           0%

28.	 Have you submitted any claims using the Y2K-ready software provided by your Medicare contractor? 6         Rural   26        65%         27%          4%           4%
                                                                                                                Urban   15        80%         13%          7%           0%

29.	 Does your Medicare contractor's Y2K-ready software function properly? 6                                    Rural   26        73%          8%          19%          0%
                                                                                                                Urban   15        80%          0%          20%          0%

4
  Only analyzed if respondent answered "No" or "Don't Know" to question 20.

5
  Rural DME: 21 of 22 who requested software received it. Urban DME: 11 of 16 who requested software received it.

6
  Only analyzed if respondent answered "Yes" to question 26.                                                                  Durable Medical Equipment Suppliers, Page D - 6
F. VENDORS AND CONTRACTORS

                                                                                                                   n        Yes          No          DK          N/A
30. Have you identified all external vendors and contractors with whom you conduct business?              Rural   145       58%         28%          7%          7%
                                                                                                          Urban   117       56%         27%          4%          14%

31. Have you discussed Y2K issues with your vendors and contractors?                                      Rural   145       45%         44%          3%          8%
                                                                                                          Urban   117       43%         37%          5%          15%

32.	 Have you received certification from vendors and contractors that their systems will be Y2K ready?   Rural   145       37%         48%          6%          9%
                                                                                                          Urban   117       29%         48%          7%          16%

33.	 Do your contracts with vendors and contractors guarantee Y2K readiness?                              Rural   145       29%         38%          23%         10%
                                                                                                          Urban   117       21%         34%          27%         17%

34.	 Have you tested Y2K data exchange between your systems and your vendors and contractors?             Rural   145       13%         68%          3%          17%
                                                                                                          Urban   117       12%         56%          8%          24%




                                                                                                                        Durable Medical Equipment Suppliers, Page D - 7
G. OVERALL ASSESSMENT

                                                                                                        Strongly                                 Strongly
                                                                                                         Agree…….….......….….…………..……………......…..Disagree
                                                                                                   n        1     2          3     4     5           6
35. I have an excellent understanding of Y2K issues:                                      Rural   145     11%    32%        28%   13%   8%          4%
                                                                                          Urban   117     18%    18%        37%   11%   6%          3%

36.	 I am very concerned about Y2K issues:                                                Rural   145    30%      30%       19%        10%         5%          3%
                                                                                          Urban   117    28%      23%       22%        10%         3%          4%

37.	 My business is currently Y2K ready:                                                  Rural   145    13%      23%       23%        15%         8%         12%
                                                                                          Urban   117    18%      18%       22%        12%         11%        9%

38.	 My business will be Y2K ready by December 31, 1999:                                  Rural   145    47%      31%        8%         3%         1%          0%
                                                                                          Urban   117    43%      27%        9%         1%         2%          2%

39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   145    51%      22%       14%         6%         2%          1%
                                                                                          Urban   117    55%      25%       8%          2%         0%          3%

40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   145    7%       12%       23%        19%         8%         6%
                                                                                          Urban   117    15%      11%       15%        12%         6%         12%

41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   145    10%      18%       21%        21%         10%         6%
                                                                                          Urban   117    18%      16%       21%        14%         3%          6%




  KEY:

   1   = Strongly Agree
   2   = Moderately Agree
   3   = Slightly Agree
   4   = Slightly Disagree
   5   = Moderately Disagree
   6   = Strongly Disagree
 N/A   = No Response or Not Applicable




                                                                                                                   Durable Medical Equipment Suppliers, Page D - 8
N/A
4%
7%

4%
9%

7%
10%

10%
16%

4%
8%

26%
28%

15%
21%




      Durable Medical Equipment Suppliers, Page D - 9
G. OVERALL ASSESSMENT (cont.)

                                                                                                   n    mean7     median7        mode7
35.       I have an excellent understanding of Y2K issues:                                Rural   139    2.86       3              2

                                                                                          Urban   109    2.78       3              3


36.	 I am very concerned about Y2K issues:                                                Rural   139   2.36          2            1

                                                                                          Urban   107   2.46          2            1


37.	 My business is currently Y2K ready:                                                  Rural   135   3.18          3            2

                                                                                          Urban   105   3.07          3            3


38.	 My business will be Y2K ready by December 31, 1999:                                  Rural   130   1.65          1            1

                                                                                          Urban    98   1.77          1            1


39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   139   1.85          1            1

                                                                                          Urban   108   1.68          1            1


40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   107   3.36          3            3

                                                                                          Urban    84   3.25          3            1


41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   123   3.21          3            3

                                                                                          Urban   117   2.83          3            3





     KEY:

      1   = Strongly Agree
      2   = Moderately Agree
      3   = Slightly Agree
      4   = Slightly Disagree
      5   = Moderately Disagree
      6   = Strongly Disagree
    N/A   = No Response or Not Applicable




7
    N/A responses were not used to calculate the mean, median, and mode.

                                                                                                                Durable Medical Equipment Suppliers, Page D - 10

H. INFORMATION ABOUT YOUR BUSINESS

                                                                                                        n
42. If your business is not currently Y2K ready, by what date do you expect to be Y2K ready?8   Rural   74    Largest Response Categories: 12/31/99 (23%), 7/1/99 (15%), 10/1/99 (10%)
                                                                                                Urban   57    Largest Response Categories: 12/31/99 (28%), 6/30/99 (16%), 6/1/99 (12%)


43. What percentage of your business is represented by Medicare?8                               Rural   141   Approx. 3/4 answered less than 50%. Median: 25%
                                                                                                Urban   104   Approx. 3/4 answered less than 50%. Median: 20%


44. Approximately how many Medicare claims do you submit per year?8                             Rural   117   Approx. 3/4 answered less than 2000 claims. Median: 500 claims
                                                                                                Urban   82    Approx. 3/4 answered less than 3000 claims. Median: 450 claims


                                                                                                         n       Yes            No           N/A
45. Is your business part of a national chain?                                                  Rural   145      6%            93%           1%
                                                                                                Urban   117      11%           86%           3%

46. Are you a provider for a managed care organization?                                         Rural   145      43%           54%           3%
                                                                                                Urban   117      55%           41%           4%

47. Do you provide services for Medicaid patients?                                              Rural   145      94%           4%            1%
                                                                                                Urban   117      78%           17%           5%

48. How long could you continue to serve Medicare patients if payments were delayed?8           Rural   125   Largest Response Categories: 1-2 months (30%), 3-6 months (36%)
                                                                                                Urban    88   Largest Response Categories: 1-2 months (31%), 3-6 months (25%)


49. If you couldn't submit electronically due to Y2K problems, how would you submit claims?8    Rural   117   Largest Response Categories: Paper Claims (91%), Will Be Ready (3%)
                                                                                                Urban    93   Largest Response Categories: Paper Claims (87%), N/A (4%)




8
    Non-responses were not used in the analysis of these questions.
                                                                                                                                Durable Medical Equipment Suppliers, Page D - 11
   APPENDIX E





PHYSICIAN SURVEY RESULTS





       )))))))))))
           E - 1

KEY:
  n   = number of responses
Yes   = percentage of n answering "Yes".
 No   = percentage of n answering "No".
DK    = percentage of n answering "Don't Know".
N/A   = percentage of n answering "Not Applicable" or providing no response.

All percentages may not total 100 percent due to rounding.

Applicable footnotes appear at the bottom of each page.


SURVEY RESPONSE RATES:

                          Total          Number of        Number of            Response
                         Number         Surveys Mailed Surveys Returned          Rate
Rural Physicians         101,843             500             124                 25%
Urban Physicians         649,897             500              95                 19%
Total                    751,740            1000             219                 22%




                                                                                          Physicians, Page E - 2
A. BACKGROUND

                                                                                                                    n    Yes    No       DK          N/A
1.   Do you contract with an external vendor for claims submission and payment activities?                 Rural   124   28%   69%       2%          2%
                                                                                                           Urban    95   39%   53%       1%          7%

2.	 Is an external vendor or contractor assisting in your effort to solve Y2K-related computer problems?   Rural   124   35%   42%       5%          18%
                                                                                                           Urban    95   47%   34%       5%          14%

3.	 Have you contacted an external vendor or contractor to assist you in completing this survey?           Rural   124   7%    83%       0%          10%
                                                                                                           Urban    95   3%    87%       0%          9%




B. Y2K AWARENESS AND PLANNING
                                                                                                                    n    Yes   No        DK          N/A
4.	 Have you thought about how Y2K problems could affect your practice?                                    Rural   124   91%   6%        1%          2%
                                                                                                           Urban    95   86%   7%        2%          4%

5.   Have you developed a strategy for dealing with potential Y2K problems associated with your:
       a. 	Billing/financial systems?                                                                      Rural   124   73%   15%       2%          10%
                                                                                                           Urban    95   72%   15%       7%          6%

        b. 	Clinical/medical records systems?                                                              Rural   124   51%   15%       3%          31%
                                                                                                           Urban    95   53%   11%       6%          31%

        c. 	Biomedical equipment?                                                                          Rural   124   41%   16%      6%           37%
                                                                                                           Urban    95   29%   11%      12%          49%

6.   Are you facing any of the following obstacles in identifying or fixing potential Y2K problems:
        a. Lack of financial resources?                                                                    Rural   124   17%   71%       4%           8%
                                                                                                           Urban    95   12%   76%       6%           6%

        b. Lack of skilled personnel?                                                                      Rural   124   24%   63%       3%          10%
                                                                                                           Urban    95   16%   72%       4%          9%

        c. Lack of vendor cooperation?                                                                     Rural   124   8%    73%      7%           12%
                                                                                                           Urban    95   6%    71%      13%          11%

        d. Lack of billing service cooperation?                                                            Rural   124   2%    72%       4%          22%
                                                                                                           Urban    95   3%    63%       7%          26%

7.   Have you thought about the impact to your practice if all systems are not Y2K ready?                  Rural   124   84%   9%        3%           4%
                                                                                                           Urban    95   88%   4%        3%           4%

                                                                                                                                     Physicians, Page E - 3
B. Y2K AWARENESS AND PLANNING (cont.)
                                                                                                                   n    Yes    No      DK           N/A
8.     Have you developed contingency plans in case your practice experiences Y2K-related failures?       Rural   124   32%   55%      5%           8%
                                                                                                          Urban    95   29%   51%      12%          8%

9.	 If you have not developed contingency plans, do you plan to do so? 1                                  Rural   68    57%   21%      21%           1%
                                                                                                          Urban   48    50%   17%      33%           0%

10. Do you feel that your ability to provide quality care could be compromised by Y2K-related failures?   Rural   124   21%   68%       8%           3%
                                                                                                          Urban    95   22%   63%       8%           6%



C. COMPUTER SYSTEMS
                                                                                                                  n     Yes   No        DK          N/A
11. Have you made a complete inventory of your:
          a. Billing/financial systems?                                                                   Rural   124   68%   22%       3%          7%
                                                                                                          Urban    95   63%   19%       7%          11%

          b. Clinical/medical records systems?                                                            Rural   124   52%   20%       4%          24%
                                                                                                          Urban    95   45%   17%       5%          33%

          c. Biomedical equipment?                                                                        Rural   124   46%   18%       6%          31%
                                                                                                          Urban    95   22%   18%       9%          51%

12. Have you assessed the Y2K readiness of your:
          a. Billing/financial systems?                                                                   Rural   124   77%   14%       1%           8%
                                                                                                          Urban    95   66%   17%       7%           9%

          b. Clinical/medical records systems?                                                            Rural   124   50%   16%       2%          31%
                                                                                                          Urban    95   47%   12%       4%          37%

          c. Biomedical equipment?                                                                        Rural   124   41%   19%       4%          36%
                                                                                                          Urban    95   23%   17%       7%          53%

13. If necessary, have you renovated or replaced your:
          a. Billing/financial systems?                                                                   Rural   124   45%   35%       1%          19%
                                                                                                          Urban    95   43%   32%       3%          22%

          b. Clinical/medical records systems?                                                            Rural   124   23%   34%       3%          40%
                                                                                                          Urban    95   21%   26%       3%          49%

          c. Biomedical equipment?                                                                        Rural   124   21%   35%       5%          40%
                                                                                                          Urban    95   14%   19%       8%          59%

1
    Only analyzed if respondent answered "No" to question 8.                                                                        Physicians, Page E - 4
C. COMPUTER SYSTEMS (cont.)
                                                                                                                     n     Yes   No        DK          N/A
14. Have you tested your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   56    66%   32%       0%           2%
                                                                                                             Urban   41    61%   37%       2%           0%

          b. Clinical/medical records systems? 2                                                             Rural   28    68%   29%       0%           4%
                                                                                                             Urban   20    70%   30%       0%           0%

          c. Biomedical equipment? 2                                                                         Rural   26    62%   31%       0%           8%
                                                                                                             Urban   13    69%   23%       8%           0%

15. Have you begun to use your new or renovated:
          a. Billing/financial systems? 2                                                                    Rural   56    71%   25%       2%           2%
                                                                                                             Urban   41    68%   24%       2%           5%

          b. Clinical/medical records systems? 2                                                             Rural   28    71%   25%       0%           4%
                                                                                                             Urban   20    65%   25%       5%           5%

          c. Biomedical equipment? 2                                                                         Rural   26    73%   19%       0%           8%
                                                                                                             Urban   13    77%   15%       0%           8%

16. Are the following currently Y2K ready:
          a. Billing/financial systems?                                                                      Rural   124   54%   33%      5%            8%
                                                                                                             Urban    95   45%   25%      20%           9%

          b. Clinical/medical records systems?                                                               Rural   124   41%   19%      10%          30%
                                                                                                             Urban    95   40%   15%      12%          34%

          c. Biomedical equipment?                                                                           Rural   124   30%   19%      15%          36%
                                                                                                             Urban    95   20%   12%      17%          52%

17. Will the following be Y2K ready by December 31, 1999:
          a. Billing/financial systems? 3                                                                    Rural   47    75%   9%       17%           0%
                                                                                                             Urban   43    77%   7%       16%           0%

          b. Clinical/medical records systems? 3                                                             Rural   36    47%   14%      39%           0%
                                                                                                             Urban   25    64%   8%       24%           4%

          c. Biomedical equipment? 3                                                                         Rural   42    45%   7%       45%           2%
                                                                                                             Urban   27    52%   15%      30%           4%


2
    Only analyzed if respondent answered "Yes" to question 13a, 13b, or 13c, respectively.
3
    Only analyzed if respondent answered "No" or "Don't Know" to question 16a, 16,b, or 16c, respectively.
                                                                                                                                       Physicians, Page E - 5
D. MEDICARE CLAIM FILING

                                                                                                                              n    Yes     No       DK          N/A
18. Are you aware that several fields on HCFA claim forms now require or will soon require 8-digit dates?            Rural   124   79%    15%       4%          2%
                                                                                                                     Urban    95   68%    18%       7%          6%

19.	 Can you enter 8-digit dates in the required fields of the paper HCFA Form 1500?                                 Rural   124   75%    9%       14%           2%
                                                                                                                     Urban    95   61%    13%      21%           5%

20.	 Can you enter 8-digit dates in the required fields of the electronic HCFA Form 1500 (NSF/X12 837)?              Rural   124   52%    10%      19%          18%
                                                                                                                     Urban    95   50%    8%       26%          16%

21.	 Will you be able to enter 8-digit dates in these fields in the next six months? 4                               Rural   37    27%    19%      51%           3%
                                                                                                                     Urban   33    30%    3%       67%           0%




E. MEDICARE CONTRACTOR EFFORTS
                                                                                                                              n    Yes     No      DK           N/A
22.	 Has your Medicare contractor sent you information on Y2K or offered assistance with Y2K issues?                 Rural   124   51%    25%      10%          15%
                                                                                                                     Urban    95   27%    37%      22%          14%

23.	 Have efforts from your Medicare contractor increased your Y2K awareness?                                        Rural   124   48%    31%      6%           15%
                                                                                                                     Urban    95   20%    51%      14%          16%

24.	 Are you aware that Medicare contractors have free Y2K-ready billing software available for use?                 Rural   124   27%    56%      3%           14%
                                                                                                                     Urban    95   16%    60%      14%          11%

25.	 Have you requested Y2K-ready software from your Medicare contractor?                                            Rural   124   10%    69%       4%          18%
                                                                                                                     Urban    95   12%    65%       7%          16%

26.	 Have you received Y2K-ready software from your Medicare contractor? 5                                           Rural   124   12%    61%      7%           19%
                                                                                                                     Urban    95   7%     61%      11%          21%

27.	 Have you installed the Y2K-ready software provided by your Medicare contractor? 6                               Rural   15     87%   13%       0%           0%
                                                                                                                     Urban   7     100%   0%        0%           0%

28.	 Have you submitted any claims using the Y2K-ready software provided by your Medicare contractor? 6              Rural   15    67%    20%       7%           7%
                                                                                                                     Urban   7     86%    14%       0%           0%

29.	 Does your Medicare contractor's Y2K-ready software function properly? 6                                         Rural   15    67%    13%      13%           7%
                                                                                                                     Urban   7     86%    0%       14%           0%

4
  Only analyzed if respondent answered "No" or "Don't Know" to question 20.

5
  Rural Phys: 7 of 12 who requested software received it. Urban Phys: 7 of 11 who requested software received it.

6
  Only analyzed if respondent answered "Yes" to question 26.                                                                                    Physicians, Page E - 6
F. VENDORS AND CONTRACTORS

                                                                                                                   n    Yes    No      DK           N/A
30. Have you identified all external vendors and contractors with whom you conduct business?              Rural   124   41%   36%      9%           14%
                                                                                                          Urban    95   55%   20%      11%          15%

31. Have you discussed Y2K issues with your vendors and contractors?                                      Rural   124   40%   44%       5%          12%
                                                                                                          Urban    95   45%   35%       4%          16%

32.	 Have you received certification from vendors and contractors that their systems will be Y2K ready?   Rural   124   26%   53%       7%          14%
                                                                                                          Urban    95   31%   45%       6%          18%

33.	 Do your contracts with vendors and contractors guarantee Y2K readiness?                              Rural   124   23%   36%      23%          18%
                                                                                                          Urban    95   21%   31%      26%          22%

34.	 Have you tested Y2K data exchange between your systems and your vendors and contractors?             Rural   124   14%   60%      6%           21%
                                                                                                          Urban    95   11%   56%      11%          23%




                                                                                                                                    Physicians, Page E - 7
G. OVERALL ASSESSMENT

                                                                                                        Strongly                                 Strongly
                                                                                                         Agree…….….......….….…………..……………......…..Disagree
                                                                                                   n        1     2          3     4     5           6
35. I have an excellent understanding of Y2K issues:                                      Rural   124     14%    23%        32%   18%   6%          5%
                                                                                          Urban   95      19%    17%        32%   16%   5%          4%

36.	 I am very concerned about Y2K issues:                                                Rural   124    18%      23%     31%     10%         11%          3%
                                                                                          Urban    95    21%      23%     25%     12%         5%           6%

37.	 My practice is currently Y2K ready:                                                  Rural   124    16%      29%     15%     11%         9%          12%
                                                                                          Urban   95     14%      22%     18%     18%         11%         8%

38.	 My practice will be Y2K ready by December 31, 1999:                                  Rural   124    41%      31%     8%       4%          2%          4%
                                                                                          Urban    95    47%      29%     8%       4%          0%          0%

39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   124    56%      20%     11%      3%          3%          1%
                                                                                          Urban    95    56%      24%     4%       6%          0%          1%

40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   124    10%      10%     21%     16%         6%          12%
                                                                                          Urban    95    11%      6%      14%     19%         16%         11%

41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   124    14%      16%     26%     12%          7%          6%
                                                                                          Urban    95    15%      16%     20%     17%          7%          5%




  KEY:

   1   = Strongly Agree
   2   = Moderately Agree
   3   = Slightly Agree
   4   = Slightly Disagree
   5   = Moderately Disagree
   6   = Strongly Disagree
 N/A   = No Response or Not Applicable




                                                                                                                                        Physicians, Page E - 8
N/A
2%
7%

4%
7%

8%
9%

10%
11%

5%
8%

25%
24%

19%
20%




      Physicians, Page E - 9
G. OVERALL ASSESSMENT (cont.)

                                                                                                   n    mean7   median7   mode7
35.       I have an excellent understanding of Y2K issues:                                Rural   121    2.95     3         3

                                                                                          Urban    88    2.83     3         3


36.	 I am very concerned about Y2K issues:                                                Rural   119   2.83      3         3

                                                                                          Urban    88   2.74      3         3


37.	 My practice is currently Y2K ready:                                                  Rural   114   3.04      3         2

                                                                                          Urban    86   3.16      3         2


38.	 My practice will be Y2K ready by December 31, 1999:                                  Rural   111   1.95      2         1

                                                                                          Urban    85   1.66      1         1


39.	 My Medicare patients' access to quality care will not be affected by Y2K problems:   Rural   118   1.73      1         1

                                                                                          Urban    87   1.62      1         1


40.	 My Medicare contractor has been very helpful in providing Y2K information/support:   Rural   93    3.45      3         3

                                                                                          Urban   72    3.72      4         4


41.	 My vendors have been very helpful in providing Y2K information/support:              Rural   101   3.03      3         3

                                                                                          Urban    76   3.03      3         3





     KEY:

      1   = Strongly Agree
      2   = Moderately Agree
      3   = Slightly Agree
      4   = Slightly Disagree
      5   = Moderately Disagree
      6   = Strongly Disagree
    N/A   = No Response or Not Applicable




7
    N/A responses were not used to calculate the mean, median, and mode.

                                                                                                                                  Physicians, Page E - 10

H. INFORMATION ABOUT YOUR BUSINESS
                                                                                                         n
42.	 If your practice is not currently Y2K ready, by what date do you expect to be Y2K ready?8   Rural   55    Largest Response Categories: 12/31/99 (35%), 6/1/99 (9%), 6/30/99 (7%)
                                                                                                 Urban   41    Largest Response Categories: 12/31/99 (22%), 6/1/99 (12%), 6/30/99 (10%)


43.	 What percentage of your business is represented by Medicare?8                               Rural   116   Approx. 3/4 answered less than 40 percent. Median: 30 percent
                                                                                                 Urban    87   Approx. 3/4 answered less than 40 percent. Median: 25 percent


44.	 Approximately how many patients do you see per year?8                                       Rural   99    Approx. 3/4 answered 8000 or less. Median: 4500
                                                                                                 Urban   69    Approx. 3/4 answered 5000 or less. Median: 2100


                                                                                                          n        Yes           No           N/A
45.	 Are you a member of a group practice?                                                       Rural   124       44%          52%           3%
                                                                                                 Urban   95        51%          43%           6%

46.	 Are you a provider for a managed care organization?                                         Rural   124       59%          36%           5%
                                                                                                 Urban    95       66%          28%           5%

47.	 Do you provide services for Medicaid patients?                                              Rural   124       90%          10%           1%
                                                                                                 Urban    95       65%          29%           5%

                                                                                      8
48.	 How long could you continue to serve Medicare patients if payments were delayed?            Rural   106   Largest Response Categories: 1-2 months (26%), 3-6 months (26%)
                                                                                                 Urban    66   Largest Response Categories: 1-2 months (24%), 3-6 months (27%)

                                                                                             8
49.	 If you couldn't submit electronically due to Y2K problems, how would you submit claims?     Rural   104   Largest Response Categories: Paper Claims (87%), N/A (8%)
                                                                                                 Urban    70   Largest Response Categories: Paper Claims (86%), Don't Know (9%)




8
    Non-responses were not used in the analysis of these questions.
                                                                                                                                                           Physicians, Page E - 11
              APPENDIX F





HEALTH CARE FINANCING ADMINISTRATION COMMENTS





                  )))))))))))
                      F - 1

)))))))))))
    F - 2

)))))))))))
    F - 3

)))))))))))
    F - 4

)))))))))))
    F - 5

                  APPENDIX G





ASSISTANT SECRETARY FOR MANAGEMENT AND BUDGET COMMENTS





                       )))))))))))
                           G - 1

)))))))))))
    G - 2

